         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Performance Audit of the
Department of Energy's Improper
Payment Reporting in the Fiscal
Year 2013 Agency Financial Report




OAS-FS-14-08                       April 2014
                                 Department of Energy
                                    Washington, DC 20585
                                        April 15, 2014



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Report on "Performance Audit of the Department of
                         Energy's Improper Payment Reporting in the Fiscal Year 2013 Agency
                         Financial Report"

The attached report presents the results of an evaluation of the Department of Energy's Improper
Payment Reporting in the Fiscal Year 2013 Agency Financial Report. To fulfill the Office of
Inspector General's audit responsibilities, we contracted with the independent public accounting
firm of KPMG, LLP (KPMG) to express an opinion on whether the Department met the U.S.
Office of Management and Budget's criteria for compliance with the Improper Payments
Elimination and Recovery Act of 2010 (IPERA). The objective of this audit was to complete an
evaluation of the accuracy and completeness of agency reporting and evaluate agency
performance in reducing and recapturing improper payments under IPERA.

KPMG expressed the opinion that the Department complied with all requirements of IPERA.
KPMG also identified two opportunities for improvement that could further enhance the agency's
assessment of improper payments.

KPMG is responsible for the attached report dated April 4, 2014, and the opinions and
conclusions expressed therein. KPMG conducted this performance audit in accordance with
generally accepted Government auditing standards. Those standards required KPMG to plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for its
findings based on the audit objectives. The Office of Inspector General is responsible for
technical and administrative oversight regarding KPMG's performance under the terms of the
contract. Our monitoring review disclosed no instances in which KPMG did not comply with
applicable auditing standards.

                                                                     Report No.: OAS-FS-14-08

Attachment

cc:   Deputy Secretary
      Deputy Chief Financial Officer
      Director, Office of Finance and Accounting
      Deputy Director, Office of Finance and Accounting
                                                           Attachment




                     Performance Audit of the
                     Department of Energy’s
                   Improper Payment Reporting
                              in the
                 FY 2013 Agency Financial Report




                                                           Prepared for:

                                       U.S. Department of Energy
                                       Office of Inspector General




As of Date:
April 04, 2014                                             KPMG LLP
                                                     1801 K Street, NW
                                                 Washington, DC 20006
                                                                                                                           Attachment (continued)



Report

Executive Summary ................................................................................................................................... 2
Background ................................................................................................................................................. 5
Objective, Scope, and Methodology ....................................................................................................... 6
Results ......................................................................................................................................................... 8
Management Response to Report......................................................................................................... 10




                                                                                                                                                       Page 1
                                                                                           Attachment (continued)


                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006



Executive Summary


April 4, 2014

Mr. Gregory H. Friedman
Inspector General
IG-1/Forrestal Building
U.S. Department of Energy
1000 Independence Avenue, S.W.
Washington, DC 20585

Dear Mr. Friedman:

This report presents the results of our work conducted to address the performance audit objectives
relative to the Department of Energy's (DOE) Improper Payment Reporting in the Fiscal Year (FY) 2013
Agency Financial Report (AFR). Our work was performed during the period of January 22, 2014 through
February 28, 2014 and our results are as of April 4, 2014.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our results based on the audit objectives.

The performance audit objective was to review the DOE FY 2013 AFR and related reporting processes to
determine if the DOE met Office of Management and Budget (OMB)’s criteria for compliance with
Improper Payments Elimination and Recovery Act (IPERA).

OMB memorandum M-11-16 defines the following as the criteria for compliance with IPERA:

   Published an AFR for the current year and posted that report and any accompanying materials
    required by OMB on the Department's website;

   Conducted a program-specific risk assessment for each program or activity that conforms with
    Section 3321 of Title 31 U.S.C. (if required);

   Published improper payment estimates for all programs and activities identified as susceptible to
    significant improper payments under its risk assessment (if required);

   Published programmatic corrective action plans in the AFR (if required);

   Published, and has met, annual reduction targets for each program assessed to be at risk and
    measured for improper payments;

   Reported a gross improper payment rate of less than 10 percent for each program and activity for
    which an improper payment estimate was obtained and published in the AFR; and

   Reported information on its efforts to recapture improper payments.



                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative                  Page 2
                                  (“KPMG International”), a Swiss entity.
                                                                                Attachment (continued)



As our report further describes, KPMG identified no compliance issues or findings. KPMG has noted
certain opportunities for improvement regarding the improper payment and payment recapture program
reporting process for consideration by the DOE.
                                                 *****

This performance audit did not constitute an audit of any portion of DOE’s FY 2013 financial statements in
accordance with Government Auditing Standards. Additionally, KPMG was not engaged to, and did not,
audit or render an opinion on the DOE’s internal controls over financial reporting or over financial
management systems (for purposes of OMB’s Circular No. A-123, Appendix D, Compliance with the
Federal Financial Management Improvement Act of 1996). KPMG cautions that the results of our
evaluation cannot be projected to future periods.



Sincerely,




                                                                                                  Page 3
                                                                            Attachment (continued)


List of Acronyms


         Term                                         Definition
AFR                Agency Financial Report
DOE                Department of Energy
FY                 Fiscal Year
IPERA              Improper Payments Elimination and Recovery Act of 2010
IPIA               Improper Payments Information Act of 2002
OFA                Office of Finance and Accounting
OMB                Office of Management and Budget
PAR                Performance and Accountability Report
HQ                 Headquarters
U.S.C.             United States Code




                                                                                           Page 4
                                                                                 Attachment (continued)




Background

The Improper Payment Elimination and Recovery Act of 2010 (IPERA) was signed into law on
July 22, 2010, amending the Improper Payments Information Act (IPIA) of 2002. IPERA directed the
Office of Management and Budget (OMB) to issue implementation guidance to agencies. OMB issued
Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123 (M-11-
16 or OMB memorandum), as implementation guidance to Federal Agencies for IPERA on April 14, 2011.

The Department of Energy Office of Finance and Accounting (DOE-OFA) communicated IPERA reporting
guidance, based on the OMB memorandum, to its 43 allottees and major contractors (referred to as
“sites” in this report), requiring the compilation and reporting of a risk assessment, improper payment
actual results, and recapture payment audit results for the payment types/classifications of
Vendor/Contracts, Contractor Payroll, Contractor Travel, “Other”, and Grants. The DOE-OFA reporting
guidance included the OMB definitions for a payment, improper payment, program, payment
types/classifications, and requirements for the recapture audit program. The DOE-OFA reporting
guidance sent to the sites required the completion of the following:

   A risk assessment to determine the programs susceptible to improper payments for the 43 sites that
    had disbursements to report. Each site with disbursements was required to perform a risk
    assessment using the eight risk factors outlined in M-11-16 and provide a risk “rating” from a scale of
    1=low risk to 3=high risk to Headquarters (HQ) to support the conclusions reached within;

   Improper Payment “actual” results for Vendor/Contracts, Contractor Payroll, Contractor Travel,
    “Other”, and Grants payment types/classifications; and

   Payment Recapture Audit results.

To facilitate the reporting process, DOE-OFA provided reporting templates with the guidance that listed
the payment categories of Vendor/Contracts, Payroll, Travel, “Other”, and Grants.

The DOE-OFA was responsible for collecting the risk assessment ratings, improper payment results, and
payment recapture audit results from the sites included in the scope of FY 2013 IPERA assessment and
reporting on improper payments for DOE in the Other Information section of the FY 2013 AFR. The DOE-
OFA utilized the results received from the 43 sites to complete an agency-wide improper payment risk
assessment. The DOE-OFA was also responsible for coordinating and reporting improper payment and
payment recapture information related to loans and grants, which was also noted within the agency-wide
risk assessment. Based on the result of the agency-wide risk assessment, the DOE concluded its
programs were not susceptible to significant improper payment risk and, as a result, not subject to
additional reporting requirements or statistical sampling as outlined in M-11-16.

Included in M-11-16 are responsibilities of agency Inspectors General with regard to determining an
agency’s compliance with IPERA Accordingly, the Objectives, Scope, and Methodology of this report
have been designed to address Part II, Section A(4) of M-11-16 (i.e., Responsibilities of Agency
Inspectors General).




                                                                                                    Page 5
                                                                                Attachment (continued)



Objective, Scope, and Methodology

Objective
The performance audit objective was to determine if the DOE met OMB’s criteria for compliance with
IPERA as described in memorandum M-11-16, which specifically establishes compliance with IPERA as
the following:

    1) Published a Performance and Accountability Report (PAR) or AFR for the most recent fiscal year
       and posted that report and any accompanying materials required by OMB on the agency website;

    2) Conducted a program-specific risk assessment for each program or activity that conforms with
       Section 3321 of Title 31 United States Code (U.S.C.) (if required);

    3) Published improper payment estimates for all programs and activities identified as susceptible to
       significant improper payments under its risk assessment (if required);

    4) Published programmatic corrective action plans in the PAR or AFR (if required);

    5) Published, and has met, annual reduction targets for each program assessed to be at risk and
       measured for improper payments;

    6) Reported a gross improper payment rate of less than 10 percent for each program and activity for
       which an improper payment estimate was obtained and published in the PAR or AFR, and

    7) Reported information on its efforts to recapture improper payments.

Scope

As established in OMB memorandum M-11-16, the scope of the audit was the DOE’s FY2013 improper
payment and reporting disclosure within the Improper Payments Information and Reporting section of the
Other Information to the FY2013 AFR.

We designed procedures to evaluate the reporting methods of DOE-OFA in compiling the IPERA results
of the various reporting sites and reviewing the Grant and Loan process risk assessment reports for the
agency-wide risk assessment. Due to the decentralized reporting structure utilized by the DOE to
complete its IPERA reporting, we obtained the improper payment data reports of the 43 sites required by
the DOE-OFA to report IPERA results. The improper payment data reports included the risk assessment
results, improper payment “actual” results, and payment recapture audit program results. To gain an
understanding of the reporting methodologies used by the sites, we selected 3 sites based on dollar
outlay and payment type. The sites selected either had the highest dollar outlay of disbursements, highest
improper payment dollar amounts, and/or in aggregate covered all payment types. The three sites
selected comprise 39% of the total dollar outlays for disbursements in FY13. The sites selected were
DOE Chicago Operations– Chicago Branch, National Nuclear Security Administration – Sandia National
Laboratories, DOE Oak Ridge – Oak Ridge Office.

Methodology
To analyze the AFR and the Improper Payments Information and Reporting section of the Other
Information to the AFR, we completed the following procedures at the DOE HQ to confirm compliance:

       Gained an understanding of the DOE’s IPERA reporting process and controls;

       Confirmed whether DOE’s policies and procedures were in accordance with IPERA;

       Confirmed whether the DOE published an AFR for the most recent fiscal year and posted the
        report and accompanying materials required by OMB on the agency’s website;

                                                                                                  Page 6
                                                                                Attachment (continued)


       Evaluated whether DOE published improper payment estimates for all programs and activities
        identified as susceptible to significant improper payments;

       Analyzed if the DOE reported a gross improper payment rate of less than 10 percent for each
        program and activity for which an improper payment estimate was obtained and published in the
        AFR;

       Confirmed if DOE published programmatic corrective action plans in the AFR for those programs
        with significant improper payments;

       Evaluated if DOE published, and met, annual reduction targets for each program assessed to be
        at risk for and identified to have significant improper payments, if applicable;

       Confirmed if management considered all Agency disbursements/programs in its Agency-wide risk
        assessment;

       Confirmed whether the DOE conducted a program-specific risk assessment for each program or
        activity;

       Confirmed if DOE obtained a statistically valid estimate of the improper payments for each
        program deemed susceptible to improper payments;

       Confirmed if management executed the assessment methodology as designed for each program
        deemed susceptible to improper payments;

       Verified if DOE HQ Personnel met OMB M-10-13 monitoring/tracking requirements, if applicable;
        and

       Confirmed if the DOE reported information on its efforts to recapture improper payments, if
        applicable.

In carrying out this methodology, we primarily applied audit techniques such as inquiry, observation, and
inspection to obtain sufficient, appropriate evidence to provide a reasonable basis for our conclusions
related to our audit objectives.




                                                                                                  Page 7
                                                                                                    Attachment (continued)



Results

Based on results of the audit performed, the DOE met three (3) of the three (3) applicable OMB criteria for
compliance noted as objectives of the audit. The table below identifies the criteria, if it was met, or if it
was not applicable to the DOE:

                              OMB Criteria for Compliance                                                   Was criteria met?
 1)     Published a PAR or AFR for the most recent fiscal year and posted that                                    Yes
        report and any accompanying materials required by OMB on the agency
        website;
 2)     Conducted a program-specific risk assessment for each program or activity                                    Yes
        that conforms with Section 3321 of Title 31 U.S.C. (if required);
                                                                                                                                1
 3)     Published improper payment estimates for all programs and activities                                  Not Applicable
        identified as susceptible to significant improper payments under its risk
        assessment (if required);
                                                                                                                                1
 4)     Published programmatic corrective action plans in the PAR or APR (if                                  Not Applicable
        required);
                                                                                                                                1
 5)     Published, and has met, annual reduction targets for each program assessed                            Not Applicable
        to be at risk and measured for improper payments;
                                                                                                                                1
 6)     Reported a gross improper payment rate of less than 10 percent for each                               Not Applicable
        program and activity for which an improper payment estimate was obtained
        and published in the PAR or APR
 7)     Reported information on its efforts to recapture improper payments.                                          Yes
 1
     The criteria is not applicable as the DOE risk assessment concluded their programs were not susceptible to significant improper
     payments, as defined by OMB guidance. Therefore, reporting of statistical estimates of improper payments, corrective actions
     and reduction targets in the AFR were not required (M-11-16 Part I.A.7, Step 2 to 4).



Other Matters

As part of the review of improper payments, we were also tasked to evaluate the agency’s efforts to
prevent and reduce improper payments. The opportunities for improvement below are actions that could
further improve the agency’s assessment of improper payments.

Risk Assessment

In Fiscal 2013, DOE-OFA relied on their A-123, Appendix A risk assessment to determine that the loans
and grants payment programs were not susceptible to significant improper payments and documented
their conclusion within an Agency-wide improper payments risk assessment. We were able to crosswalk
the DOE-OFA’s A-123 analysis to the eight risk factors identified by OMB Memorandum M-11-16. In FY
2013, the DOE-OFA also implemented a pilot program to assess improper payment risk over grant
payments. Management explained this pilot was, in part, to assist in determining if improper payment
reporting for grant payments should follow the established DOE-OFA improper payment measurement
methodology to monitor and report improper payment payments and, potentially, recapture payments, as
followed for the other program types, e.g., Vendor/Contracts, Payroll, Travel, and Other.

The pilot consisted of a hybrid approach to assessing risk where management relied substantially on the
results of their A-123, Appendix A testing of key internal controls at each of the ten grant payment
reporting sites to assess whether the grants payment program was susceptible to significant improper
payments. In addition, management requested grants payment data from three of ten payment reporting
sites/allotees as part of this pilot, receiving grant payment data reports like those provided by the other
program types, e.g., Vendor/Contracts, Payroll, Travel, and Other. Based on DOE-OFA’s two methods of
assessing the risk for grant disbursements, DOE quantitatively assessed three sites through their



                                                                                                                           Page 8
                                                                                    Attachment (continued)


payment data with outlays of $1.4 billion, and DOE-OFA qualitatively assessed the seven remaining sites
through risk mitigating controls with outlays of $6.7 billion.

We noted that based on the results of their pilot program, DOE-OFA plans in FY 2014 to request payment
data for all ten grant disbursement sites using the process in place for the other program types, e.g.,
Vendor/Contracts, etc. We suggest that the Department perform qualitative risk assessments that
summarize the risk factors explicitly for the loans and grants payment programs. The rationale for how
the eight risk factors are addressed at the site-level should include, in part, management’s consideration
of the results of testing internal controls designed to mitigate the eight risk factors. If no relevant controls
are tested in FY 2014, management’s assessment of risk should be determined, in part, through
consideration of the results of substantive testing methods. If the sites/allotees have adequate
justification not to monitor and report improper payments in accordance with DOE-OFA guidance, they
should document the rationale and submit to DOE-OFA to gain consensus and for their records.

Recapture Reporting

The Amount Subject to Review and Actual Amount Reviewed and Reported were understated for the
“Other” category in the Payment Recapture Audit Reporting for FY 2012 Payments Table (Table) by $134
million in DOE’s FY 2013 AFR. While the $134 million was not included in the “Other” category of
program payments in the Table, it was included in the Table’s Total amounts of $46.5 billion and $39.8
billion.

The error occurred because one site modified (i.e., added more detail) to the payment data template they
submitted. The consolidation process did not capture the additional detail. Effective consolidation of the
data template submissions was dependent upon use of the standardized template.

We suggest DOE-OFA implement policies and procedures to effectively capture accurate data from the
sites and to review the consolidation process to identify and correct any mathematical errors and
omissions.




                                                                                                       Page 9
                                Attachment (continued)



Management Response to Report




                                               Page 10
                                                                  IG Report No. OAS-FS-14-08

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the inspection would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
